<html>
<title> - [H.A.S.C. No. 111-35]STATUS OF THE FUTURE COMBAT SYSTEMS PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-35]
 
              STATUS OF THE FUTURE COMBAT SYSTEMS PROGRAM

                               __________

                                HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 26, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
50-824                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               CATHY McMORRIS RODGERS, Washington
ADAM SMITH, Washington               MARY FALLIN, Oklahoma
MIKE McINTYRE, North Carolina        DUNCAN HUNTER, California
ELLEN O. TAUSCHER, California        JOHN C. FLEMING, Louisiana
ROBERT A. BRADY, Pennsylvania        MIKE COFFMAN, Colorado
JIM COOPER, Tennessee                HOWARD P. ``BUCK'' McKEON, 
JIM MARSHALL, Georgia                    California
JOE SESTAK, Pennsylvania             W. TODD AKIN, Missouri
GABRIELLE GIFFORDS, Arizona          JEFF MILLER, Florida
NIKI TSONGAS, Massachusetts          JOE WILSON, South Carolina
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
FRANK M. KRATOVIL, Jr., Maryland     ROB BISHOP, Utah
ERIC J.J. MASSA, New York            MICHAEL TURNER, Ohio
BOBBY BRIGHT, Alabama
                  Doug Bush, Professional Staff Member
                 John Wason, Professional Staff Member
                      Ben Glerum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, March 26, 2009, Status of the Future Combat Systems 
  Program........................................................     1

Appendix:

Thursday, March 26, 2009.........................................    37
                              ----------                              

                        THURSDAY, MARCH 26, 2009
              STATUS OF THE FUTURE COMBAT SYSTEMS PROGRAM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     1
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Air and Land Forces Subcommittee.......................     5

                               WITNESSES

 Francis, Paul L., Director, Acquisition and Sourcing Management, 
  U.S. Government Accountability Office; accompanied by William 
  R. Graveline, Assistant Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office; and Marcus 
  Ferguson, Senior Analyst, U.S. Government Accountability Office     6

                                APPENDIX

Prepared Statements:

    Francis, Paul L..............................................    41
    Thompson, Lt. Gen. N. Ross, III, Principal Military Deputy to 
      the Assistant Secretary of the Army for Acquisition, 
      Logistics and Technology and Director, Acquisition Career 
      Management; joint with Maj. Gen. John R. Bartley, Program 
      Manager, Future Combat Systems.............................    55

Documents Submitted for the Record:

    Four charts submitted by Mr. Francis.........................    67

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
              STATUS OF THE FUTURE COMBAT SYSTEMS PROGRAM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                          Washington, DC, Thursday, March 26, 2009.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Neil Abercrombie 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE 
    FROM HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Hi everybody. Thank you for coming today.
    The Subcommittee on Air and Land Forces is meeting to 
receive testimony on the Army's Future Combat Systems (FCS) 
program from the Government Accountability Office, the GAO. The 
Army was invited to provide witnesses and had agreed to do so; 
in fact, submitted a statement last week. I was indisposed, and 
the hearing had to be postponed until today.
    As of yesterday, at least, the staff of the committee was 
notified the Army didn't see fit to inform me as the chairman 
that no witnesses from the Army would be available to discuss 
the FCS program and the GAO report today.
    I want to make it clear to everybody the hearing is not 
about FCS in 2010. There are budget considerations under way 
right now, program considerations under way right now among the 
President's staff and the Department of Defense (DOD), internal 
discussions going on there. I had indicated to General Casey 
that I understood that and, in fact, indicated to him, so that 
there would be no question in his mind, that these were serious 
issues to be discussed, that we are not in a contest. We are 
trying to determine what is the best path forward. Serious 
decisions had to be made, and I wanted to try and make them 
together on the basis of what was good for the Nation.
    I also indicated that, as far as the hearing was concerned, 
it was about the GAO report, which I considered a critique as 
opposed to criticism, i.e., an analysis bent on discussing 
merits or demerits of the program or adding to or subtracting 
from positions that were taken about either individual parts of 
the FCS system, the Future Combat System, and/or the overall 
philosophy even behind it. That the GAO report as I read it had 
nothing to do with any of that, rather tried to, and I think 
successfully did, address what are the premises of the program, 
what were the procedures and processes in place and implemented 
to--or not implemented--to try to accomplish the goals and 
purposes, and critique that with the idea of then presenting 
findings and observations as to the success or lack of it in 
terms of the premises established by the Army itself.
    I am speaking a little bit to our witnesses here from the 
GAO with the idea of establishing what is in my mind; and if 
you have something different as I am outlining my reading of 
your report, you, of course, are not only free to do so but I 
hope you will indicate it.
    But I see some heads nodding a little bit, and the body 
language I am getting is I do believe that I am stating this 
correctly.
    And the idea of the subcommittee taking up the GAO at this 
time was to provide illumination, I would have hoped, for the--
for not just the Army but the Pentagon and the Executive to be 
able to come up with conclusions and recommendations that we 
could incorporate into the defense bill.
    The fact that the Army has chosen not to even appear but to 
leave standing, I guess, the public relations announcements 
that were made in the wake of the original publication of the 
GAO report and its summary as reported in the news media leads 
me to conclude, I guess, that they don't have any real argument 
with what you are saying. Otherwise, they would be here today.
    So taking the Thomas More approach, silence is assent. So 
as far as I am concerned the Army has given its assent to the 
conclusions and observations and the approach, that is to say 
the methodology, that was used in the GAO report. If they have 
a different point of view, they, apparently, are reserving it 
to themselves.
    Transparency is the byword and watchword these days. It 
certainly is that of the Obama Administration. I had no reason 
before today to believe that would be otherwise with Secretary 
Gates and/or the Chief of Staff of the Army, but the actions 
speak for themselves. They are not here. They had the 
opportunity to be here. As I say, I will take their silence to 
mean assent.
    So no explanation for this change in willingness to provide 
the Congress and the American people with an update on where 
the program stands today has been forthcoming.
    The goal of this hearing is to lay out for members and the 
public where the program is today, what has been learned, and 
where we might go from here. After authorizing and 
appropriating--forgive me, members of the committee and for you 
folks from the GAO. Most of this is known to you, but this is 
in fact a public hearing, and there may be many people out 
there for whom this information is new.
    After authorizing and appropriating more than $18 billion 
in taxpayer dollars for the Future Combat Systems program since 
2003, it is important that the Congress review what has been 
accomplished and how much work remains to be done.
    The President appears to have some views on defense 
programs, which those views being relevant I believe to the FCS 
program when he said as follows, and I quote: ``It is time to 
end the extra costs and long delays that are all too common in 
our defense contracting. We need to invest in technologies that 
are proven and cost-effective. If a system isn't ready to be 
developed, we shouldn't pour resources into it. If a system is 
plagued by cost overruns, it should be reformed. No more 
excuses. No more delays. The days of giving defense contractors 
a blank check are over.'' Unquote.
    Today's hearing hopefully will help Congress and the 
public--and perhaps even the Army if it is tuning in--I presume 
that they can get their C-SPAN channels on as well, which will 
help them understand I hope those qualities that apply to the 
FCS program.
    With regard to the GAO, over the past several years, it has 
been my experience certainly personally, and I think the 
experience of the Armed Services Committee in the House, that 
the GAO has done excellent work in its oversight role, not just 
in the FCS program but in every other area that we have asked 
for the observations and recommendations of the GAO. While the 
Army at times has disagreed with judgments made by the GAO and 
its analysts, the reports the GAO has produced have helped 
Congress focus its oversight on critical issues; and it has 
provided in my judgment independent and dispassionate views not 
just of this program but of all the other programs that it has 
made recommendations and observations upon.
    I believe that the 2009 report on the FCS continues this 
tradition. Since its inception, the program has faced serious 
questions regarding technical feasibility, cost estimates and 
basic conceptual tenets. From a technical aspect, the fielding 
dates have moved from 2008 to 2010 to 2015. That speaks for 
itself.
    It is clear now that the Army from a technical standpoint 
has had little real idea of what exactly development of FCS 
would entail. As a result, the Army has constantly changed the 
requirements for individual elements of the FCS program as 
reality began to intrude on each element's design. I could give 
several examples which I will produce for the record, but they 
will probably come out as we explore.
    One point I do want to make, though, just last June, while 
making claims of acceleration of the program, which was made in 
fact to me face-to-face when I first heard about it in my 
office that the program was actually going to accelerate--that 
was the word used--the Army was in fact forced to delay the 
limited user test for spinout number one equipment by a full 
year because the equipment was simply not working well enough 
to proceed with the test as planned. That constituted an 
acceleration. Just don't do the test. Well, if you don't do the 
test, you can accelerate the spinout. The assumption being is 
that there will be absolutely nothing to go wrong and that when 
it comes forward it will be able to be utilized on the spot.
    So the cost estimates has faced challenges. The programs 
cost has grown from $91 billion in 2003 to $159 billion today 
by their own estimates. It does not include the cost of the 
spinout equipment estimated at $17 billion to $21 billion alone 
for spinout number one. It does not include the cost of the 
Joint Tactical Radio System (JTRS) program or the Warfighter 
Information Network Tactical (WIN-T) program, both of which the 
FCS program requires for fielding.
    This has been one of the issues that I have raised over and 
over again. If you cannot get the radio system and the 
information system integrated, then what is the efficacy then 
of pursuing the rest of the program for which the information 
and exchange system is crucial?
    So, finally then, I want to go to the basic conceptual 
ideas, that the idea was that, through technology and computer 
network, sufficient knowledge of the enemy's position could be 
achieved to conduct most engagements at standoff range, thus 
allowing very lightweight vehicles to survive in the 
battlefield.
    The wars in Iraq and Afghanistan I believe have called some 
of this into question, but that remains to be seen. A case can 
still be made. The point is that every single vehicle deployed 
to Iraq and Afghanistan now weighs more, not less, and has more 
armor, not less, than the original design entailed. So while it 
is always a worthy goal to put the enemy at a distance and 
avoid putting troops at risk, I think the reality of 4,000 
years of military history shows that achieving a perfect 
situational awareness is very difficult if not impossible to 
achieve and that the troops faced thinking enemies, not static 
dummies or static situations. So the question of concept, 
technology, and implementation and cost all are relevant here; 
and I think the GAO report addresses those elements.
    So in today's hearing we also--I would be disingenuous if I 
didn't indicate that we are looking then not just at one 
program in isolation but how that fits into the big picture of 
readiness and capabilities of the Army as a whole.
    For the Army, the fundamental choice appears to be keeping 
the new, larger Army we have today and the larger Army we are 
pursuing and pursuing at the same time a massive list of Army 
acquisition programs of which FCS is just one on the books. 
General Casey himself has indicated with the term, out of 
balance, quote, unquote, that this is a difficulty.
    Whatever foreign phrase one uses, however, the basic facts 
remain the same: The people in the Army are wearing down from 
years of deployments. The equipment in the Army's inventory is 
just barely keeping up with the demands the two wars we now are 
engaged in require.
    So we face a choice, not just with the FCS program but a 
choice as to where the Army is going. And I will lay that out 
as I conclude, what I think is at stake in our decisionmaking.
    It could choose to end the program entirely, which might 
save money but would also negate much of the work that has been 
done to date. It could continue as planned and hope things work 
out as the program now assumes and that the funding for the 
Army's other needs will somehow materialize even as the FCS 
program costs continue to grow. Or it could fundamentally 
reorganize the FCS program now to take advantage of some of the 
work done so far but take a much more sober and realistic and 
disciplined approach to moving forward with the program while 
investing the savings in less risky modernization plans.
    This committee, of course, and the committee as a whole 
would be delighted to work with all concerned to achieve that. 
So the purpose of today's hearing then, finally, is to set the 
stage for that discussion which we expect to have once the 
Army's fiscal 2010 budget proposal is delivered to the 
Congress.
    I will turn now to my good friend, Mr. Bartlett, for his 
opening remarks.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
   MARYLAND, RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Bartlett. Thank you, Mr. Chairman.
    Mr. Chairman, regretting the absence of the Army, I 
nevertheless want to thank our panel for being here. We are 
very fortunate to have each of you here. You provide a very 
valuable service to our country. Thank you for coming today.
    As a member of the House Armed Services Committee, I have 
always been guided by President Ronald Reagan's wisdom that 
America will ensure peace through strength. Upholding our 
Constitution and maintaining a strong defense should be our 
highest priorities as Federal elected officials, because if we 
don't get these priorities right nothing else will matter.
    Today, we are here to talk about the Army's Future Combat 
Systems program. The Government Accountability Office has 
recently released its yearly report on the FCS system.
    By the way, as you know, Mr. Chairman, the requirement to 
generate this report came from this subcommittee. In fact, 
there have been multiple legislative provisions in regard to 
this program that were all generated from this subcommittee. 
And, Mr. Chairman, although in recent years we have differed in 
regards to decrementing the program, every one of the FCS 
legislative provisions was done in a bipartisan manner; and I 
applaud your leadership.
    There have been recent media reports about a pending major 
restructure to the FCS program. I would add, Mr. Chairman, that 
while I understand that we in Congress have many difficult 
decisions to make in this upcoming budget cycle, that it would 
be premature for us to condemn the program going forward until 
we have seen the results of the 2010 budget, full transparency 
regarding the potential restructured program and, finally, the 
results of the congressionally mandated go/no-go review. And, 
again, Mr. Chairman, this review is another provision that 
originated in this subcommittee.
    One last point. While I understand the primary purpose of 
this hearing is to discuss programmatic issues and concerns, I 
believe it is difficult to have such a conversation without a 
thorough understanding of what led the Army down this path. I 
have heard that some believe that this is a Cold War system. I 
am not really sure what that means, but it is a good bumper 
sticker. I believe the Army could benefit from thoroughly 
explaining what the future threat is and what the capability 
gaps are that have led the Army down this path. Is the 
foundation that launched the Army into this program in 2003 
still valid today? What lessons have been applied from Iraq and 
Afghanistan?
    At the end of the day, whatever happens, the Army must be 
allowed to modernize. Parents are reluctant to send their 
children to school without the latest and greatest cell phones. 
They certainly aren't going to want them to join the Army so 
they can defend our Nation in vehicles that were designed in 
the 1960's and built in the 1970's.
    And forcing the Army to choose between personnel and 
modernization isn't a choice at all. I believe that there 
should be a balance between acquisition and procurement needs 
and research and development for future opportunities.
    I am a farmer as well as a scientist and engineer. I would 
caution if the Army is forced to eat its seed corn, which is 
its Research and Development (R&D), then we will forego in 
large measure the potential of future harvest of better 
technologies.
    I look forward to hearing from our witnesses today, and I 
want to thank you again for your service to our country and for 
appearing before us this afternoon.
    Thank you, Mr. Chairman.
    Mr. Abercrombie. Thank you very much.
    Before I get to our witnesses, I am going to, on my 
authority, with the acquiescence of the subcommittee, put into 
the record a statement by Lieutenant General Ross Thompson, 
III, which was originally submitted on March 17th--given to us 
for testimony on March 17th. And it said, ``Not for publication 
until released by the Committee on Armed Services'', and so I 
am going to put this into the record.
    I regret that General Thompson isn't here to speak to this 
statement, but I think it is important to be in the record, 
whether or not the Army is here, so that at least the public 
has the opportunity to see what the Army thought last week.
    [The prepared statement of General Thompson can be found in 
the Appendix on page 55.]
    Mr. Abercrombie. One other administrative point. We will 
allow members present at the start of the hearing to ask 
questions in reverse seniority order. I alternate between 
senior members one hearing and then the least senior members 
the next hearing being able to start the questions so that 
everybody has the opportunity.
    So, with that in mind, we will go to Mr. Francis, the 
Director of Acquisition and Sourcing Management from the GAO; 
Mr. Graveline--is it Graveline?
    Mr. Graveline. It is Graveline, sir.
    Mr. Abercrombie. Pardon me?
    Mr. Graveline. Graveline.
    Mr. Abercrombie. Mr. Graveline. Mr. Graveline, Assistant 
Director for Acquisition and Sourcing Management; and Mr. 
Ferguson, the Senior Analyst from the GAO. And I read it in 
that order, but that doesn't necessarily have to be the order 
in which you testify. It is up to you gentlemen.
    Mr. Francis. I thought I might surprise my colleagues and 
go in reverse order.
    Mr. Abercrombie. Okay.

    STATEMENT OF PAUL L. FRANCIS, DIRECTOR, ACQUISITION AND 
  SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
   ACCOMPANIED BY WILLIAM R. GRAVELINE, ASSISTANT DIRECTOR, 
     ACQUISITION AND SOURCING MANAGEMENT, U.S. GOVERNMENT 
  ACCOUNTABILITY OFFICE; AND MARCUS FERGUSON, SENIOR ANALYST, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Francis. Thank you, Mr. Chairman, Mr. Bartlett, and 
members of the subcommittee. We are pleased to be here to 
discuss Future Combat Systems today. I would ask that our 
statement be submitted for the record.
    Mr. Abercrombie. Without objection.
    Mr. Francis. What we have been asked to do is to walk 
through our March 12th report. So how I would propose to do 
that is each of us will just basically take a section of the 
report and walk through it, if that is all right with you.
    I was surprised when we read the press accounts from the 
Army and the reaction to our report. We do have, I think, a 
pretty robust process for vetting the draft report, meeting 
with the Army, soliciting comments. We got full concurrence 
from the Department of Defense on all the recommendations. So 
indeed I was rather surprised by the Army's reaction.
    So I think our analysis is clear, as you will see. We don't 
have a position on whether the program is a good or bad program 
or whether it should or shouldn't be pursued but simply can it 
be executed for the resources that are estimated. And I think 
that is our job and that is the counsel we would provide to 
you.
    I will just start off by talking a little bit about FCS. I 
think many of you know these things, but in the interest of it 
being a public hearing I thought I should cover them, in any 
event.
    FCS is a revolutionary program for a variety of reasons. 
The weapons that it embodies, the fighting concept that comes 
with it, and the organizational communication systems that come 
with FCS are all revolutionary. It is a system of 14 systems 
whose combat capability largely comes from an unprecedented 
information network.
    The FCS does present a smaller, lighter force than what is 
currently fielded but does offer or advertise that that smaller 
lighter force will be as lethal and survivable as the current 
M1 and Bradley force. It is a system that will rely a lot on 
robots--unmanned air vehicles (UAVs), unmanned ground vehicles 
(UGVs), unattended sensors, unattended munitions.
    But the heart of FCS is the communications network or the 
information network, and in a very basic sense the network is 
going to enable the Army to substitute information for mass.
    So the vehicles in FCS, as I mentioned, are going to be 
lighter; and they are going to be designed not so much to 
withstand the hit but rather to avoid taking the hit. I think 
that is sort of the design philosophy for FCS.
    The network that we are talking about is not like any 
network that we are familiar with. If you think of a cell phone 
network or the Internet, those are basically fixed 
infrastructures. So your cell phone, while it is mobile, as 
soon as you make a call--like if I was going to call Mr. 
Abercrombie, my cell phone doesn't connect to his cell phone; 
rather, it connects to a cell tower and into a fixed 
infrastructure which then eventually gets to Mr. Abercrombie's 
phone.
    Mr. Abercrombie. I better turn it off.
    Mr. Francis. I thought you were a Luddite, Mr. Abercrombie. 
I am surprised you have one.
    Even the Internet, if you have a wireless laptop, you are 
one connection away from a fixed server; and, right away, you 
are into a fixed infrastructure driven by fiber-optic cable. 
The network does not move.
    But the FCS network is quite different. It is a mobile, 
self-forming network whose linchpin is what Mr. Abercrombie 
mentioned in his opening statement, the joint tactical radio. 
All of the vehicles, both manned and unmanned, all of the 
sensors, even the unattended munitions, have some form of this 
radio in them. And the radio is software programmable. It is a 
computer that functions both as a radio and it is your cell 
tower, if you will. So all the communications, all the relays 
go through these radios.
    So, again, if I am going to make a call, say, to Mr. 
Ferguson on the end here, if I call him or I want to send him 
information, the FCS network will decide how to route that 
communication, and it may route through all the members of the 
panel before it gets to Mr. Ferguson. And then if he is going 
to respond to me, we are all in vehicles or on foot, we have 
all moved before he responds, so that when he does respond that 
message could take a different route coming back. And so the 
network will decide what radios it is going to use as relays to 
send that information.
    So the real challenge is what happens if you have 5,000 
radios operating and you are really dependent on getting that 
information right away. So it is quite a different network. 
There isn't anything like it today.
    Having said that, a lot of things about FCS that we do like 
and we do appreciate, the idea of having an architecture where 
you conceive how you are going to fight before you design 
individual systems, I think is a very good approach and 
something the Army has not done in the past. I think it would 
have been easier for the Army to have designed and built a new 
Bradley or a new M1, but they didn't do that. They wanted to 
look ahead and see what they really needed, and they broke with 
tradition. So they didn't do what was easy. They did what was 
hard. And I admire that, and I think the Army leaders deserve 
our respect for that.
    Where GAO comes in is our analysis is on can they do it. It 
is not enough for it to be a good idea. It is not enough to 
want it. It is not enough even to need it. You have to be able 
to do it. And we have a number of concerns on that regard. So I 
thought I would talk a little bit about our methodology, how we 
look at this program. Because that is part of the contention 
between us and how the Army looks at the program.
    So I have the first chart there, and I believe you each 
have a handout if you can't read the chart. But I just direct 
your attention to the top bar there.
    When we look at programs we basically look for three 
knowledge points. Does everyone have a chart?
    [The chart referred to can be found in the Appendix on page 
67.]
    Mr. Francis. So if you look on that top bar, there is a 
black triangle there called (Knowledge Point) KP 1 and 
(Preliminary Design Review) PDR. That is knowledge point one 
and----
    Mr. Abercrombie. Hang on one second on the charts.
    Mr. Francis. It may be at the end of your statement.
    Mr. Abercrombie. We will pass them out. I thought it was in 
the back of the statement, but it may not be in here 
inadvertently.
    It is in the back of the GAO testimony, but we will pass it 
out anyway.
    Go ahead.
    Mr. Francis. So on that, on chart one, there is--on that 
top bar there is a black triangle called--it is knowledge point 
one and preliminary design review. What we look for early in a 
program, that is the milestone B decision when you start a 
system development, we look for mature technologies and stable 
requirements. And the way you get a dot check on whether you 
have that is through a preliminary design review where you are 
actually matching requirements with technologies.
    This is also codified in DOD's acquisition policy. So it is 
not just our methodology, it is DOD policy. So we look for that 
when a program starts.
    About halfway through, just move to the right, the next 
triangle, knowledge point two, that is critical design review. 
About halfway through system development we are looking for the 
design of the system to be stable. And stability is achieved by 
having integrated all the different subsystems, the 
technologies are done, and you are actually ready to build 
high-fidelity production-representative prototypes.
    Mr. Abercrombie. Excuse me. Mr. Francis, that can be 
replicated, right?
    Mr. Francis. Yes.
    Mr. Abercrombie. That when you do something one time you 
can do it 2, 5, 10, 20, 100 times.
    Mr. Francis. Yes. And then when you build those prototypes 
after that point you are actually establishing your ability to 
be able to repeat.
    The third thing we look for, knowledge point three, the 
third black triangle there, coincides with the milestone C or 
the initial low rate production decision. What we are looking 
for there, and again in DOD policy, is a mature design that has 
been proven through testing. It proves that it meets 
requirements and that it is reliable and that it can be 
produced. So that is the lens we use.
    FCS is in the sixth year of a 10-year program, and it is 
nowhere near the level of knowledge it should have using this 
as a guide. That is why we believe, and our report says, we 
think it is unlikely that the remainder of the program can be 
executed as planned, because there aren't many resources left.
    Mr. Abercrombie. For purposes--the committee can see this. 
I am not sure that those who are viewing it can see the chart. 
I am not sure how the camera--they can't see it, is that right?
    Could you explain then the second line where the technology 
development start, the PDR in the ideal setting is----
    Mr. Francis. That is what I just went through.
    Mr. Abercrombie. Now, where is it in the second line?
    Mr. Francis. I am going to turn that over to Mr. Ferguson, 
and he is going to walk you through that. So we have a game 
plan.
    Mr. Abercrombie. Okay, very good.
    Mr. Francis. This is not to be a criticism of FCS in the 
sense that we think FCS should have gone better, shouldn't have 
had any problems. It is just where it is.
    Mr. Abercrombie. That is not an issue. Let's put this to 
rest right now. We are not here throwing rocks. We are here to 
try to analyze where we are and what the situation is. We are 
dealing in real time with real numbers in a real situation in 
which we have a defense bill that we have to put forward 
shortly. That is what this is all about. That is all it is 
about.
    Mr. Francis. Yes, sir.
    Mr. Abercrombie. We are not here to throw rocks in the 
green. I am not interested in that, never have been.
    Mr. Francis. So I will just wrap up here by saying 2009 is 
going to be a very big year. There is a go/no-go decision that 
is scheduled for late summer which this subcommittee 
championed. We look at that as a grassroots look at the program 
to see if it should continue or not.
    Congress has--or in what form. Congress has laid out 
criteria that DOD is to respond to in doing that review; and my 
colleague, Marcus Ferguson, is going to go through--he'll go 
through the bottom half of this chart and basically stack up 
what we think the Army will know against those criteria of that 
milestone decision.
    Mr. Ferguson. Good afternoon. It is a pleasure being here 
today.
    I will be discussing the Army's activities leading up to 
the congressionally required milestone review happening later 
this year. Congress outlined numerous criteria for that review. 
These criteria relate to four key areas: technology, designs, 
demonstrations, and cost. We found that the FCS program has 
knowledge gaps in these areas; and, as a result, we believe the 
Army will be challenged to convincingly demonstrate the 
knowledge necessary to warrant an unqualified commitment to the 
FCS program of record at the 2009 milestone review.
    The first of these key areas is technology maturity. 
Technology readiness levels, or TRLs, are measures pioneered by 
the National Aeronautics and Space Administration (NASA) and 
adopted by DOD to gauge technology maturity. The maturity 
assessment is based on two factors: fidelity of the test 
article and fidelity of the test environment. For instance, a 
TRL four would be a low fidelity breadboard in a laboratory, 
while a TRL six would be a prototype that is very close to 
form, fit, and function demonstrated in a relevant environment.
    It is TRL six that is the minimum acceptable maturity level 
required by DOD to begin development. Applying the standard 
means that FCS should have achieved TRL six in 2003. The Army 
now expects to demonstrate TRL six for all technologies by May 
of this year.
    I would like to use an example that illustrates why it is 
so important to mature FCS technologies. As Mr. Francis pointed 
out, these vehicles break from traditional survivability 
methods which simply used a lot of armor. They rely on a 
layered approach to survivability that begins with the 
information network technologies to enhance situational 
awareness and avoid detection. If that first layer fails and an 
FCS vehicle is detected and fired upon, then hit avoidance 
technologies like the active protection system would need to 
counter the incoming threat. If that layer fails, then the FCS 
vehicle must be able to withstand the impact using the 
lightweight armor technologies that are currently in 
development. Each of these survivability layers depends on the 
maturation of those associated technologies.
    Technology maturity has been a key predictor of program 
success. Historically, acquisition programs that proceed with 
immature technologies have much more cost growth than those 
with mature technologies. Extending technology development this 
late into the acquisition process puts FCS at risk for 
experiencing problems that may require large amounts of time 
and money to fix.
    Mr. Francis. Marcus, could you, on the chart there, show 
the members where we are with technology, because that is the 
second bar there.
    Mr. Ferguson. Certainly. Right.
    So if you look at the timeline at 2003, the top portion 
that Mr. Francis just discussed has knowledge point one and 
PDR. If you come down to the second area where the FCS approach 
is, they started that second shaded bar, that system 
development and demonstration, in 2003, but not all their 
technologies had been matured to a TRL six. So now we have 
progressed six years and spent $18 billion, and now we are at 
the preliminary design review, and technologies are now getting 
to the point where they should have been to start the 
development process.
    Mr. Abercrombie. Six years?
    Mr. Ferguson. Yes, sir.
    Mr. Abercrombie. And what point are they now?
    Mr. Ferguson. They are approaching preliminary design 
review where they have--they plan to demonstrate all 
technologies to a TRL six by the summer.
    Mr. Abercrombie. Demonstrate that?
    Mr. Ferguson. Yes, sir.
    Mr. Abercrombie. Would that mean that the--I want to make 
sure I understand this, because Mr. Francis just said with 
regard to the radio network--I will just refer to it as the 
radio network.
    Mr. Ferguson. Okay.
    Mr. Abercrombie. There isn't anything like it today, I 
believe is the exact quote. There isn't anything like it today. 
Does that mean that the radio network is now at a stage--the 
last time I saw it, it was being simulated.
    Mr. Ferguson. Right.
    Mr. Abercrombie. Is that at a stage now where it is ready 
to be integrated at a six level?
    Mr. Ferguson. The TRL six would be for the individual 
radios and not the integrated comprehensive network. So that 
would progress in phases. You would have the TRL six 
demonstration for just the individual radio capability, and 
then you would start netting together all of those individual 
radios to demonstrate that you can actually produce a mobile ad 
hoc network.
    Mr. Abercrombie. But wouldn't that be the level six? Am I 
misunderstanding you? That would be the level six. An 
individual radio, what is that? That is just a start. Am I 
misunderstanding?
    Mr. Francis. No. The level six is just the individual 
technologies. The integration of the technologies and whether 
they can actually form a network is to be determined. So the 
TRL six is your first triangle. It is your starting point.
    Mr. Abercrombie. I understand that, but I am still not sure 
that I understand how just simply putting a radio in isolation, 
that that doesn't have anything to do with the integrative 
requirement.
    Mr. Francis. Correct. It is the first step to getting 
there.
    Mr. Abercrombie. If it is the first step, then how come it 
would be labeled at a six level? Wouldn't that be at the 
beginning level?
    Mr. Francis. Well, that is the beginning level, but that is 
just an individual technology to see if you have the building 
blocks to put a network together.
    Mr. Abercrombie. Okay.
    Mr. Ferguson. The next key criteria area relates to 
requirements and designs. The first real check to determine 
whether a system's design is able to meet requirements occurs 
at that preliminary design review we just discussed, and so if 
you will turn back to our graphic you will see that the PDR 
ideally would have happened in 2003 for the FCS. This is 
happening six years later, this summer.
    Nevertheless, the Army has worked very hard defining the 
FCS concept, detailed requirements, preliminary designs for the 
family of FCS systems and the information network. The Army 
plans to complete its review of the requirements and designs 
for individual FCS systems and the information network and 
conduct a comprehensive system of systems preliminary design 
review before the go/no-go review this summer. However, the 
schedule to close out all those reviews may take more time than 
anticipated. The Army has identified key gaps between the 
requirements and designs for several elements of the 
information network. Also, the projected weight of the FCS 
manned ground vehicles has grown significantly beyond earlier 
estimates, which could have a number of impacts on their cost 
and performance. In the coming months, the Army will have to 
address these and other issues as it charts its course through 
the next phase of development.
    The third key criteria area pertains to demonstration of 
the FCS information network software and the overall FCS 
concept. As Mr. Francis pointed out, the network is crucial to 
the FCS concept as it is designed to ensure that Army forces 
know more about what is going on in the battle space than does 
the enemy. The Army has been able to demonstrate its 
capabilities on a limited scale. However, DOD officials tell us 
that this type of network the Army is developing becomes more 
complex as more radios are added, an issue called scalability. 
As a result, it is hard to have a great deal of confidence in 
the network until demonstrations become more robust and 
incorporate more real production representative hardware 
components.
    The Army will be challenged to meet the congressional 
direction to demonstrate, rather than just simulate, that the 
network concept will work by the milestone review. To date, the 
Army has conducted many simulations but only limited 
demonstrations of select capabilities, including the manned 
ground vehicles and software. It has not yet attempted a broad 
field demonstration of the FCS concept as a whole. That type of 
event will not happen until 2012 as part of what is called the 
limited user test three. That is about one year before the Army 
plans to begin low rate initial production for core FCS 
systems. If that demonstration is unsuccessful, it may require 
major changes to the FCS family of systems at a time when 
change is usually the most costly.
    The final key criteria area for the go/no-go review relates 
to cost and affordability. The Army's original estimate for 
developing and procuring FCS was $92 billion dollars. The 
Army's current estimate is $159 billion. These figures do not 
include the cost for complementary programs or spinouts, as you 
pointed out, Mr. Abercrombie.
    In the coming months, the Army is expected to update its 
cost estimate for FCS program. Last year, the Army indicated 
that FCS costs may increase substantially, but it has not yet 
indicated whether it would tradeoff FCS capabilities to 
accommodate those higher costs as it has done in the past.
    The Army did signal that it may reduce funding for upgrades 
to current force systems such as Abrams and Bradley to provide 
additional funding for FCS. While the updated program cost 
estimate should be a better representation of actual cost than 
previous estimates, the program still has many risks and 
unprecedented challenges to meet, and thus the estimate will 
likely change as more knowledge is required over time.
    I will now turn to Mr. Graveline, who will discuss several 
other key aspects of the program. Thank you.
    Mr. Bartlett. Mr. Chairman.
    Mr. Abercrombie. Yes.
    Mr. Bartlett. I want to make sure I understand this flow 
chart. Am I to understand that we have critical design review 
before technology development is complete? And, if so, how do 
you do that?
    Mr. Francis. Mr. Bartlett, where are you looking on the 
chart?
    Mr. Bartlett. I am on the bottom thing there. You have 
technology development continuing until about 2013, and yet you 
have critical design review--we are doing it in about 2011. And 
I want to know how you do critical design review before you 
have technology development completed.
    Mr. Graveline. I would just say that it is a matter of 
having the review versus accomplishing the goals of that 
review. They are attempting the preliminary design review here 
shortly.
    Mr. Abercrombie. Mr. Graveline, for the benefit of the 
record, could you pull the mic a little closer and repeat what 
you just said?
    Mr. Graveline. Okay. I would address that question by 
saying it is one thing to have the review, and it is another 
one to complete the objectives of the review. To certainly get 
a good, solid preliminary design review or a critical design 
review technology should not be a question any longer. They 
should be mature. So at this stage that is still to be 
determined with FCS as to whether--how successful those reviews 
are going to be, and technology will be one of those questions 
that needs to be answered.
    Mr. Bartlett. They are just presuming the results of the 
technology development in their critical design review.
    Mr. Francis. Well, Mr. Bartlett, there is actually two 
things going on here. We have plotted on the top chart--the 
Department of Defense and the Army use the metric of TRL six as 
technology maturity. What we have plotted on the bottom, our 
work shows that TRL seven is the better measure. So that bar 
down below we say that is when they will get a TRL seven, which 
will be after critical design review, but the Army believes 
they only need TRL six to hold that review.
    Mr. Bartlett. Your best practices charted on the top shows 
technical development completed before you do the preliminary 
design review.
    Mr. Francis. Yes.
    Mr. Bartlett. And here you have technology development 
still continuing after you have done critical design review. I 
am just confused.
    Mr. Francis. No, that is correct. That is the strategy for 
Future Combat Systems. They will not be done--fully done with 
technology development until the production decision.
    Mr. Abercrombie. Mr. Bartlett, your question is a good one.
    Do you understand what is being asked here, Mr. Francis? I 
think you do. But the audience and everybody may not be clear 
as to what we are talking about.
    Mr. Bartlett, as you know, is a physicist and a scientist, 
so his level of incredulity when the proposition is put 
forward, as it just has been, is understandable. What he is 
saying, quite simply, is, you mean you are going to go ahead 
with something before you know whether it is going to work.
    Mr. Francis. Yes, that is correct.
    Mr. Abercrombie. Is that a colloquial way of putting it?
    Mr. Francis. Yes.
    Mr. Abercrombie. That has been--and that is the difficulty 
here--has been the difficulty for the subcommittee all along, 
is you are trying--what the FCS approach seems to be is that if 
the laws of physics don't apply the way we want it to apply, we 
will bend the laws of physics verbally so that we can say, 
well, before we have reached technology maturity or what the 
DOD definition is of that, we will simply presume that that is 
going to occur and move on to the next stage.
    Mr. Francis. Yes.
    Mr. Abercrombie. Is that an unfair, not necessarily 
summary, but an unfair analysis of the approach that they are 
using?
    Mr. Francis. No, I think that is a fair characterization. 
It is a concurrent approach to do technology and design at the 
same time and, as we will talk later, actually start to commit 
to production before you have the design done.
    Mr. Abercrombie. I have characterized this myself in the 
past as sympathetic magic. And I am not being sarcastic about 
it. It is an anthropological term. And it is a well-known--
magic is not always evil, not always sticking pins in people 
to--or in dolls to make them hurt. Magic also takes place when 
you engage in incantations and so on in order to try to have a 
good outcome. And what is being said here is if we talk about 
the critical design review and the technical readiness level 
being synonymous or advancing verbally, then maybe it will 
actually happen. The problem comes, does it not, in relation to 
Mr. Bartlett's question, if that doesn't occur.
    Mr. Francis. That is correct. If it doesn't occur and you 
have created all of your estimates around that assumption, then 
you cannot get the program done for those estimates.
    Mr. Abercrombie. And that causes us then to run into a real 
brick wall with a lot of bleeding from the eyes, does it not?
    Mr. Francis. It does.
    Mr. Abercrombie. Okay.
    Mr. Graveline. Good afternoon. It is my pleasure to be here 
today to discuss our most recent work on FCS. Beyond the cost 
and technical issues that Mark has just covered, I would like 
to discuss the road ahead for the FCS program.
    The Army faces a number of challenges as it moves forward 
to complete FCS development. We believe that under its current 
acquisition strategy the FCS program may not be executable 
within current cost and schedule projections. The schedule for 
spinouts is aggressive, and production commitments may happen 
before adequate supporting knowledge is available. The 
remainder of the current FCS program of record is very 
ambitious, and events are driven more by the calendar than by 
the achievements of specific acquisition knowledge.
    To illustrate, I would like to turn your attention back to 
our chart number one here.
    As we have already discussed, the Army has, among other 
things, been developing technologies and defining requirements 
since 2003. In 2009, the Army is approaching the preliminary 
design review point and potential achievement of knowledge 
point 1. Ideally, the critical design review would be held 
halfway through program. The desired outcome of this event, as 
Mr. Francis indicated earlier, is that the design is shown to 
be stable.
    In FCS's case, the critical design review will be held 8 
years into the 10-year program. Moreover, the Army has 
scheduled only two years between the preliminary design review 
and the critical design review and another two years between 
critical design review and production. This ambitious schedule 
leaves little room to gain knowledge and make needed 
adjustments between the key events in the system engineering 
process. It also results in prototypes being built from the 
less mature preliminary designs, as opposed to the more mature 
critical designs.
    I would like to now turn to chart number two, and that is 
also in your handout called ``Remaining FCS Research and 
Development Funding and Key Events.'' The Army's cost estimate 
for all of FCS development is around $30 billion. Through 
fiscal year 2009, the Army has received about $18 billion or 
about 60 percent of the total estimated. Of the roughly ten 
years projected from program start to the projected beginning 
of initial production, FCS is approaching the sixth year, or 60 
percent mark.
    Within the next four years, the Army will have to further 
mature and integrate many of the individual critical 
technologies which we already talked about: mature the system 
designs, complete the development, integration, and testing of 
a huge volume of software, fabricate numerous prototypes, 
conduct extensive development testing, and the fix test, fixed 
kind of approach at the end, and prepare the design, processes, 
and facilities for production.
    If the current FCS program receives approval to proceed at 
the next milestone review, the Army will have to complete 
development with only 40 percent of its financial and schedule 
resources remaining of what is typically the most challenging 
expensive work ahead, such as building and testing of 
prototypes. We don't believe this to be an executable strategy.
    [The chart referred to can be found in the Appendix on page 
68.]
    Mr. Abercrombie. Mr. Graveline, before you go further with 
that, is that because you are assuming that the $30 billion 
funding for research and development will remain static?
    Mr. Graveline. Yes. We assume the current program of record 
until the Army decides to increase their program estimate, they 
could, and actually they indicated to that extent last year 
that they may be headed that direction. But yes.
    Mr. Abercrombie. Did you have a figure for that, or am I 
anticipating the rest of your testimony?
    Mr. Graveline. In our reports and in the statement for the 
record I believe we talk about the Army's projected cost 
increases for the program, and they were talking about $2 
billion in development and upwards of $17 billion in 
procurement. So there was a $19 billion cost difference.
    Mr. Abercrombie. Added to the $30 billion.
    Mr. Graveline. No, that would be to the $159 billion, the 
whole program.
    Mr. Abercrombie. What about the $30 billion?
    Mr. Graveline. The $30 billion would be about $32 billion. 
But that is probably just the first down payment on additional 
costs there.
    To carry on, though, for the next--for the last few years, 
the Army has not only pursued the goal of eventually fielding 
15 FCS brigade combat teams (BCTs)--that is what is called the 
core FCS program--but also field selected FCS capabilities to 
current Army forces. The Army plans to spin out some early FCS 
capabilities to infantry brigade combat teams in 2011 and other 
FCS capabilities later.
    The initial production decision for these items is now 
expected this December. However, testing to date has been 
limited, and it has involved surrogates or nonproduction 
representative systems or forms of the spinout systems.
    The three tests scheduled for later----
    Mr. Abercrombie. What examples do you have? Give us an 
example.
    Mr. Graveline. Well, for one, some of the radios that are 
intended for the systems that we have talked about are not 
ready. They will be using surrogates for those. And some of the 
other systems are still in design, and they are using an 
engineering development model type of thing.
    The three tests scheduled for later this year will also 
follow the same practice. That is a concern for us, and we have 
recommended that DOD base its initial production decision on 
testing of the actual systems to be fielded.
    In conjunction with its spin-out efforts, the Army 
Evaluation Task Force at Fort Bliss has been, in our view, a 
wise investment by the Army, in that FCS and other capabilities 
will be given early evaluations by Active-Duty soldiers. The 
lessons learned from this process should be very beneficial.
    Finally, let me spend a moment to discuss Army's plans to 
pursue an incremental approach for FCS. Last year Army 
officials said they were considering an incremental of block 
acquisition approach for FCS for several reasons. One was 
immature requirements in several key areas, challenges in 
meeting performance expectations within program costs and 
schedule, funding limitations, and continuing challenges and 
aligning schedules and expectations for FCS and its 
complementary programs. At this point it is not clear if this 
incremental approach will feature----
    Mr. Abercrombie. Mr Graveline, excuse me one second. Mr. 
Marshall.
    Mr. Marshall. I am on page seven of your written testimony. 
There are four items listed as part of this incremental 
approach. And the second item is limited availability of 
performance trade space to maintain program cost and schedule, 
given current program risks. Could you explain what 
``performance trade space'' means? I am just not familiar with 
that concept.
    Mr. Graveline. Well, it is where you have a couple of 
competing requirements, and to accomplish it you are finding it 
difficult to accomplish them both, where, for example, the 
Army's manned ground vehicles are turning out to be quite 
heavier than they anticipated, the designs with the new armor 
they are using and other things. So that has an impact on the 
speed and endurance and range, how far you can go on a tank of 
gas, for example. There is a tension there because the manned 
ground vehicles, the engine and propulsion system will only 
give you so much thrust. So the heavier you are, the slower you 
will go and the less range you will have. So that is one of the 
tension things where they can't work out both right now.
    Mr. Marshall. This may be a term of art in your business, I 
don't know; so when you say limited availability of performance 
trade space, what you are saying is that a given component of 
the system has a number of different requirements and you might 
be able to give a little bit with one requirement, but at some 
point if you are giving a little bit here and giving a little 
bit there, the total capability just isn't going to be what was 
expected. Is that what is meant by this limited availability of 
performance----
    Mr. Graveline. Right. At this point you can't accomplish 
everything. Frankly, that is what they are finding in the 
preliminary design reviews. They are doing a whole series of 
early ones on the pieces. They are finding out gaps like that, 
that you can't get everything. And so there is a laundry list 
of items that they will have to work through after the reviews 
are done and make some tradeoffs and give a little bit here and 
do additional things in other areas.
    Mr. Marshall. Trade space is what you are referring to?
    Mr. Graveline. Tradeoff.
    Mr. Marshall. Swap this for that; you might get a little 
less here but get more here.
    Mr. Graveline. Right. They may decide on the weight issue 
that they are actually probably too heavy, so they will have to 
do some design work and other maybe technology work to reduce 
the weight. It will just be another thing added to the workload 
to work that out in different ways.
    Mr. Marshall. Thank you.
    Mr. Graveline. And at this point it is not clear if this 
incremental approach will feature reduced requirements for some 
FCS systems or reduced sets of FCS systems to be produced or 
fielded, or a combination of these options.
    Restructuring the FCS program around an incremental 
approach has the potential to alleviate some of the risks in 
the strategy. We look forward to hearing more about the Army's 
incremental plans for FCS when they are finalized. In any case, 
an incremental approach should be carefully scrutinized.
    I will now turn back to Mr. Francis for some concluding 
remarks.
    Mr. Francis. Mr. Chairman, just something very quickly. And 
we are putting up a third chart; it should look like this in 
your handouts. The one thing I want to draw your attention to 
here, it is a busy chart, but while the development of the FCS 
program is finishing late, the commitments to production are 
coming early.
    And I just wanted to point out on the congressional 
calendar what is going to be expected of you in the coming 
years. So at this time next year, February 2010, that is when 
the first request for FCS production money will come for core 
systems. It is for facilities. But that will just be a few 
months after your go/no-go decision. You will be asked to put 
up the first production money.
    A year from that, February 2011, will be the second year of 
production money and, again, you are still before the critical 
design review.
    The third request for production money will come in 
February 2012. That will be for fiscal year 2013. And at that 
time you will have the critical design review; but that limited 
user test three, which is the first systems, a systems test 
will not have been held yet. So conceivably the Congress could 
be asked to invest $50 billion in FCS, 12 of that being 
production, before we have a test where we think the FCS can do 
what it is supposed to do. So those commitments come pretty 
quickly.
    Mr. Chairman, it was a long opening statement, but we are 
ready for any more questions you might have.
    [The chart referred to can be found in the Appendix on page 
69.]
    Mr. Abercrombie. It is difficult not to observe that it is 
understandable why the Army isn't here. Although I just want to 
repeat for the record, we are not here to beat anybody up; that 
is not the issue here. These are life-and-death issues and the 
people, as you have observed yourself, and, I would emphasize, 
that are doing this, the motives are good and the intentions 
are clear, but that doesn't necessarily make something happen. 
These are deadly serious issues, not just figuratively. They 
are certainly really, really serious with respect to where the 
money, the resources are.
    Have you concluded, then, Mr. Francis?
    Mr. Francis. Yes.
    Mr. Abercrombie. We will go to Mr. Massa first.
    Mr. Massa. Thank you, Mr. Chairman. And, gentlemen, thank 
you for the work that you do as oversight watchdogs of the 
American taxpayers' money.
    Mr. Francis, you said at heart of this entire concept is a 
radio network. Did I understand that correctly?
    Mr. Francis. Yes, sir.
    Mr. Massa. We will be asked in the very near future to fund 
approximately $1 billion in procurement for what is generally 
known as the radio system called SINCGARS. Are you familiar 
with that?
    Mr. Francis. Yes, I am.
    Mr. Massa. Would you characterize that as a radio 
frequency-hopping single channel Very High Frequency (VHF) 
mobile radio system?
    Mr. Francis. I will take your word for it.
    Mr. Massa. Do you have an understanding of whether or not 
this $1 billion in procurement for a 1982 legacy system 
developed under an Operational Requirements Document (ORD) in 
1976 in the United States Army has any compatibility at all, 
either theoretically or operationally, with the FCS network of 
radios that are at the heart of this system?
    Mr. Francis. It will be compatible, but it cannot function 
as that relay that I had talked about. So it can talk to FCS, 
but you are not going to be able to route any message traffic 
through the SINCGARS radio.
    Mr. Massa. And is it not true that the ability to route 
message traffic through the radio system at the heart of this 
is, in fact, what creates the revolution in information warfare 
that characterizes FCS?
    Mr. Francis. Yes.
    Mr. Massa. So while it can function, it cannot do what FCS 
has at the heart of its technological revolution; is that 
correct?
    Mr. Francis. That is correct.
    Mr. Massa. So we are going to spend a billion dollars on 
radio equipment that has nothing to with FCS as it moves 
forward.
    Mr. Francis. That is correct.
    Mr. Massa. I am trying very hard--because I am burdened 
with the reality that I was in the room when this concept was 
created--I am trying hard not to be punitive. But to date, 
besides one class four UAV, which in fact had nothing to do 
with FCS but in fact was a Navy system that was procured off 
the shelf, besides that it is my nonexpert opinion--and I am 
just an upstate New York country farm boy----
    Mr. Abercrombie. Watch out.
    Mr. Massa. I really would like to express for the record 
that the most important weapons system yet created by FCS is 
approximately 700 tons of PowerPoint slides. And unless we plan 
on dropping them on the enemy, I don't understand how this will 
ever become reality.
    And it is a matter of common sense. Army acquisition, on 
one hand, is asking us to spend a billion with a B, and I know 
we toss that number around here like it is normal--back where I 
come from in farm country, a billion dollars is still a lot of 
money--a billion dollars on a handheld radio system developed 
with technology in 1976 that has virtually nothing to do with 
what the Army is telling us is the backbone of the future of 
the network of radio systems that the Army wants to move 
forward on.
    Can you kindly tell me why I should vote to spend a billion 
dollars on something that has nothing to do with what you and 
the Army is saying is the future of the Army?
    Mr. Abercrombie. I beg your pardon, Mr Massa, but Mr. 
Francis cannot kindly tell you that one way or the other, not 
in this hearing anyway.
    Mr. Massa. I apologize for being emotive about this. I 
understand at the core of professionalism is objectivity. But 
we as legislators are asked only to command money; that is all 
that we are asked to do. And yet we talk about a $40 billion 
cost overrun as if it is normal, because we have allowed it to 
become normal. A billion here and a billion there, and pretty 
soon you are talking real money.
    I value your input because I know you are dispassionate, 
you bring to the table something that I don't. I bring a lot of 
passion to this, because I, again, was there when this started.
    And the thing that Chairman Abercrombie brings to this 
table, that all the generals who have been before us have not, 
is longevity. We have heard it all, we have seen the parade of 
experts over time, and we have a corporate memory that this has 
been going on and on and on. And we--ask at least I do as a new 
guy--when will it end?
    And so I appreciate your testimony and your frankness. But 
I illustrate for the record that we are being asked to make 
decisions that are in direct contradiction to common sense. 
They are in direct contradiction to procurement policy. And, 
frankly, I don't know if I can support it.
    Can you please give me some measure of hope that we can get 
to the bottom of this in an intelligent manner and, in fact, 
look to the future?
    Mr. Francis. I can try.
    Mr. Massa. Thank you.
    Mr. Francis. I think what we are seeing here is the larger 
problems with acquisition as we know them. That is, when a new 
program is proposed and it is proposed with an optimistic 
schedule, and everyone counts on that and then it doesn't come. 
Well, what happens in the meantime is the current forces have 
to be sustained and they need equipment. And I think that is 
the case with SINCGARS versus JTRS. The JTRS was supposed to be 
fielded years ago and was supposed to replace SINCGARS and 
Enhanced Position Location and Reporting System (EPLARS).
    Mr. Massa. And yet many of us who were on the staff of this 
committee and supported the members who had the main decisions 
said, very clearly, what was being proposed would never happen, 
over and over and over again. We are throwing acronyms around 
like cereal floating in an alphabet soup. The Non-Line-of-Sight 
cannon is an artillery piece. The manned ground vehicle, I 
love--I saw a tank-like vehicle--it is a tank. And yet we 
believe that somehow by giving them a new revolutionary name, 
that we are going to be led to believe that something 
revolutionary is going to happen. And when it doesn't, those of 
us who said, ``I told you so'' have nowhere to go but to then 
go back to the American taxpayer and pull money out of their 
wallets, especially at a time when they don't have it. That is 
the frustration that freshman Members of Congress like me who 
are embedded in dairy farm common sense bring to this table.
    Mr. Francis. Well, I think that enriches the discussion 
because those viewpoints--I think those of us who have been in 
the business, I think you are right, after a while you get used 
to, well, ten percent cost increases isn't much. But it is.
    But to come back to SINCGARS, what ends up happening is you 
get a request, because we have to replace things for the forces 
that are in the field today. And the reason we are having to do 
it is the things that we promised never came, and we have been 
in that cycle for quite some time now.
    Mr. Massa. Well, thank you for your frankness. I apologize 
for my passion about this, but I think it is important that we 
bring some reality back to these PowerPoint presentations and, 
frankly, understand that what we are ultimately talking about 
is fielding weapons systems for soldiers, so they can break 
things and do the work of the Nation when we ask them. There 
are radios out there that are far beyond SINCGARS, that were 
developed just in the past five years, that are more cost-
effective and cheaper.
    And, Mr. Chairman, thank you for your patience with me. I 
yield back my time.
    Mr. Abercrombie. Not a bit. Mr. Kissell and then Mr. 
Bartlett.
    Mr. Kissell. You have another freshman up here, and while I 
am not from upstate New York and don't have the dairy farm 
common sense, I maybe can refer to down south, North Carolina, 
living in rural areas, working in textile mills.
    We don't go in these hearings in a vacuum of other 
information or what we have learned in other hearings. One of 
the hearings that we have had recently is on procurement. And 
the statements that were made is we just keep making the same 
mistakes.
    And it does become very hard to accept that cost overruns 
are a part of life. And we at some point in time have got to 
have the consequences and systems to take care of that.
    With that said, in opening remarks, Mr. Francis, you said 
you were surprised at the Army's reaction. Can you characterize 
that a little further, please? What was that reaction?
    Mr. Francis. The Army had said they didn't understand how 
we came up with some of our calculations and didn't agree with 
our methodology. And my surprise is that I think the press has 
characterized our report as scathing, and used other 
adjectives. But we have been very consistent over these past 
five or six years, and we hold the program to DOD's own policy. 
I don't know of any other way to look at the program.
    Mr. Kissell. Have you had a chance to get with the Army 
since then, to help explain it should not have been surprising?
    Mr. Francis. Yes, we have.
    Mr. Kissell. I am an economist by college background, and 
one of the words that economists use a lot, and we have heard a 
lot recently, is ``let's assume.'' And we have been seemingly 
using that concept in this procurement process; let's assume it 
is going to work.
    And somewhere in my past I came across levels of knowledge, 
things you know that you know, things that you know that you 
don't know. One of those areas of knowledge is things that we 
don't know that we don't know. In this kind of process, we have 
an assumption in the charts that are going rapidly toward out 
of money before the procurement process is tested and 
implemented.
    Based upon things like this we have done before, what is 
out there that we don't know? What is the chance there are 
going to be some glitches that we just can't anticipate, that 
is going to throw this off even more?
    Mr. Francis. I think there is a lot of discovery out there, 
as the conversation we had with Mr. Abercrombie about TRL six 
technology for radios; that is that first point. So you have--I 
think the term of art is unknown unknowns. And you go through 
those when you develop that radio and you solve them and make 
tradeoffs. But now we are about the business of integrating 
that into a network that has to function with other systems. 
There will be other discoveries there and I think what you find 
when you go through a system development like this is that, as 
the design is better understood, complexity increases because 
you make those discoveries.
    Mr. Kissell. And the no-go or go point, how is that 
decision going to be made and who is going to make it?
    Mr. Francis. Do you want to take that, Bill?
    Mr. Graveline. Sure. There the Congress set out a number of 
expectations of certain analyses and assessments that should be 
done in preparation for that. The Army is going to be coming 
forth with a series of presentations, data, studies and the 
like. Others in the Pentagon are going to be bringing these 
things forth. There will be a cost estimate, and even an 
independent cost estimate. So things are all in play already to 
bring this information together that will be assembled and 
evaluated really first by DOD staff people in the Pentagon to 
put all these things together and sort it out.
    And then at the end, it will be, the Defense Acquisition 
Board and the Under Secretary for Acquisition, Technology, and 
Logistics (AT&L) is the chairman of that. And they will get 
together for at least a series of meetings and discussions to 
evaluate what do we have here. Because that is the whole 
essence of this go/no-go, where the program--most agree that 
didn't get a good start, or the starting point was just let the 
Army go ahead on this, even though technologies weren't in 
place, it wasn't a good cost estimate, the requirements were 
nebulous, at best.
    So the committee legislatively thought that it would be a 
good point, around preliminary design review, to come back 
together once you have done some work, you have got your 
technologies in order, the requirement process is completed, 
then get together and say where are we, and is this product 
that is emerging, does it continue to make sense, how 
achievable is it? You will have better information available to 
look at those and make solid projections, rather than just a 
wish that we can have it done at a certain time to do a real 
go/no-go; does it really make sense? That was the essence of 
the logic of putting this requirement together.
    And so, again, things are in play already to get the 
information, the studies, the various viewpoints coming 
together this summer. The Defense Acquisition Board will get 
together, I believe they have already scheduled that at the end 
of July. And then there will be a report, or maybe a series of 
reports, that will be issued and reported to the committee. I 
believe the legislation says 120 days after preliminary design 
review.
    So it is going to be a busy time in the Pentagon and Army 
circles, going through that. And we intend to keep on top of 
that and review all the materials as they come in.
    Mr. Francis. It is the Office of Secretary of Defense who 
will make that decision, not the Army.
    Mr. Kissell. Thank you.
    Mr. Abercrombie. Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Can you help me understand the Army's urgent field need 
that embarked us on this never-before-used development and 
procurement protocol, obviously fraught with uncertainties?
    Mr. Francis. We were involved just before the program got 
started and heard the Army's rationale. I think they were 
looking ahead to next generation and to future forces. And they 
were looking at Future Combat Systems as a replacement for the 
heavy force. It was going to replace M1s and Bradleys, but it 
was going to do so in such a way that a smaller force could 
have the combat power of a larger force. It would be easier to 
get the equipment into theater and easier to support it when it 
was there.
    So I think it was, in terms of art again, as long as we are 
talking, it was a ``capabilities-based decision'' that the Army 
thought it needed this capability for the future versus 
reacting to a particular threat.
    I think there was also the thought at the time that there 
was a limit to how much armor you could put on a vehicle, and 
some anti-armor weapons were outstripping the ability of armor 
to protect. And you would have to take another step now to 
provide that protection, which now would be in the form of the 
information network.
    Mr. Bartlett. But that relates only to specific vehicles, 
not to this very complex integrated system.
    Let me ask a couple of kind of practical questions here. 
Another provision that was initiated to full committee level 
was the elimination of lead systems integrator and I suspect 
Future Combat Systems had something to do with that.
    Obviously the lead systems integrator has an intimate 
relationship with the subs, and communicates with them on a 
continuous basis to know what they are doing and are they 
really getting there.
    The usual contracting mechanism that we have, the Pentagon 
has with the industry, is that we interface only with the 
prime; and we see the subs only through this really dark prism 
of the prime. Do you think we ought to look at reconsidering 
that if, in fact, we are going to be the lead systems 
integrator?
    Mr. Francis. I think so.
    Mr. Abercrombie. Mr. Francis, when you answer that 
question, would you elucidate a little bit on what we mean by 
lead systems integrator? We know what we are talking about, but 
we are being viewed by people for whom that may not be a 
familiar phrase.
    Mr. Francis. Certainly. A traditional contracting 
arrangement would be, say, between the government and a prime 
contractor. And this has been changing over time, but generally 
you look at that as an arms-length relationship where the 
government will write a set of requirements, and the prime 
contractor is responsible for designing and building a system 
to meet those requirements. And the prime contractor brings 
with them all of their suppliers. So the government only has 
visibility really into that prime contractor.
    Now, DOD has been trying to get away from that over time. 
They have been going with integrated product teams and 
arrangements like that so it is a closer working relationship. 
The lead system integrator is perhaps the closest working 
relationship that we have come across, and that is a situation 
where the government actually partners with a contractor and 
the contractor helps the government make decisions about 
requirements. And what the government gets out of that, then, 
is in the case of FCS the government can participate in the 
selection of the contractor supplier. So they get a lot more 
visibility there.
    So you give up the arms-length relationship, but what you 
gain is joint decision making and the government gets more 
insight into the supplier base. I think that enables--
    Mr. Abercrombie. That works two ways, doesn't it?
    Mr. Francis. It works two ways, yes. It does make the 
government more agile, but then it becomes in our view a little 
more difficult for oversight, because it is hard to separate 
the contractor's contribution from the government's 
contribution.
    But I do think insight into the suppliers is a benefit of 
that relationship. I think the government can get better 
insight without necessarily having to go through a lead system 
integrator relationship with another contractor. So I take your 
point. I think there are lessons to be learned for the 
government. If the government is to be the integrator, it 
should find ways, I think, to get more visibility into the 
suppliers.
    Mr. Bartlett. Thank you. One more kind of a commonsense 
question. Obviously, we can increase the cost of these systems 
if we go too slow. And we increase the cost of the system if we 
try to go too fast, which is what we have done here. How do you 
know from the get-go whether you are going too fast or too 
slow? What is the right balance between these?
    Mr. Francis. Mr. Bartlett, I think it is knowing where to 
go fast and where to go slow. And our view and we have 
benchmarked this again against best practices in commercial 
industry is you really need to do your risk taking before you 
declare something to be a program that you will put on a fixed 
schedule and budget.
    So the place to experiment, then, is in the science and 
technology base, when you can explore, make mistakes, have 
failures and decide what is then in the art of the possible. 
The systems engineering discipline then gives you criteria that 
you can use to say when you know enough to actually commit to a 
schedule.
    So I would say if we have a robust science and technology 
phase where you can actually push those technologies and weed 
out the doable from undoable, then I think you can have a 
pretty quick development phase for a system. For example, if 
you could tradeoff requirements so you get that match between 
mature technologies and requirements, I don't think it is 
unreasonable to think about a 5- or 6-year development phase, 
because you are focused only, then, on integrating the product 
and not worrying about technologies.
    Mr. Bartlett. Didn't we do it very much quicker than that 
with Mine Resistant Ambush Protected (MRAPs)? We kind of broke 
all the rules there, didn't we? And, I gather, a pretty 
successful procurement?
    Mr. Francis. Yes. To a large extent, the homework had been 
done on those vehicles, technology development, and the 
integration. So we did some modifications to them, but we were 
able to buy them largely off the shelf.
    Mr. Bartlett. Mr. Chairman, I just wanted to return to my 
initial question. This was obviously a very risky development 
and procurement protocol. And I was never apprised of the 
urgent field need, what enemy out there had capabilities that 
forced us to this very revolutionary protocol for developing 
and fielding this system. If there was that kind of thing out 
there, this had the urgency of the Manhattan Project, then I 
understand. I have some trouble understanding how we ever got 
started down this road with no really urgent field need out 
there that necessitated this kind of risk taking.
    Mr. Francis. Well, I think that would be a good question 
for the Army to answer. I do think a large part of it dealt 
with not so much a change in the threat, but the fact that the 
Army did have aging equipment and they were looking to replace 
it. But I think the Army should handle that one.
    Mr. Bartlett. Thank you very much. And thank you, Mr. 
Chairman.
    Mr. Abercrombie. Before I go to Mr. Marshall on that, just 
to make sure I am clear, what Mr. Bartlett is talking about and 
what has been alluded to here and what is specifically here in 
the slide that you had about best practices approach and the 
FCS approach, is that if there was such a need, equipment is 
coming to the end of its useful life, is there another 
generation of equipment that would prove useful in one 
situation or another?
    The way to do that is what the Army already had out there. 
First you do technology development and you move toward 
technology readiness levels and you do preliminary design 
review. And do everything in order, right? There is a book.
    Mr. Francis. Yes.
    Mr. Abercrombie. This is not being made up now. You didn't 
make up this chart?
    Mr. Francis. No.
    Mr. Abercrombie. There is a book out there and you follow 
the book along how you do these things. You make sure you have 
you your technology maturity and then you go to your low rate 
production, et cetera, et cetera. Right?
    Mr. Francis. Yes.
    Mr. Abercrombie. What we are seeing here is none of this 
was followed.
    Mr. Francis. That is correct.
    Mr. Abercrombie. Or it was cited in the breach. These 
phrases would be used, or these benchmark measurements would be 
cited, but they weren't cited in the order in which they were 
expected to appear had you been doing it in the ordinary course 
of events.
    Mr. Francis. That is correct.
    Mr. Abercrombie. And so that is where our difficulty is. It 
is not a matter of too fast or too slow. It is a matter of not 
following the procedures.
    Mr. Francis. In my view, they were about a phase off. We 
have this preliminary design review in 2009. We are right about 
the time you would have enough information to start a program.
    Mr. Abercrombie. Yes.
    Mr. Francis. But we did the cost estimate six years ago 
when we knew very little.
    Mr. Abercrombie. Right. So in some respects they are 
accelerating. What we are doing is accelerating right through 
what the book requires in terms of time and expense. It might 
take a little longer, but at least you would be dealing with 
measuring apples to apples.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. I guess I will stay 
with Mr. Bartlett's question as well. It is unfortunate the 
Army is not here with us. If the Army were here with us I think 
that the Army would be very easily able to make the case that 
having a system like this system available to it is hugely 
helpful in combat; that it is very appropriate for us to 
support the Army in attempting to develop a system like this, 
and very understandable that the Army would want to design it 
as proposed, just sort of given the way combat works.
    I will bet the Army would say that unfortunately as its 
effort evolved, as it got into it and started working it, just 
time slipped. In the ideal world, it would have developed all 
the technology that was needed for this program before moving 
to the next stage or at least been confident that that 
technology was deliverable at a reasonable cost and it just 
didn't work out. It has been too difficult to develop, and so 
they just felt they had to move forward with the rest of it, 
sort of looking at their overall estimates, the limits of the 
budget, sort of cost creep that inevitably attends, pushing 
things off, those sorts of things.
    I think probably one of the reasons the Army is not here, 
the Army sort of looks at this and says, you know, we started 
this thing with a very good plan, needed assets, needed 
development. And then all kinds of problems have occurred and 
we have gotten ourselves into a pretty untenable position.
    So I have to believe that the Army will come back at some 
point with a suggestion for restructuring the program to take 
into account the obvious concerns that this committee and 
Congress will have in light of your report.
    And so that leads me to--now that I have testified on 
behalf of the Army, Mr. Bartlett--that leads me to what I am 
interested in, and that is how you do you think the Army should 
restructure this at this point?
    I apologize, I had to go out. I have had somebody that I 
have needed to meet with for some time and it conflicted with 
this hearing. And so I was just sitting out in the other room, 
but we had the television off.
    Have you considered sort of what are the reasonable ways 
that the Army could restructure the program to sensibly move 
forward from where we are right now, as opposed to just 
abandoning the notion altogether? I think it would be a shame 
if we simply abandoned the notion altogether.
    The MRAP vehicle has been a very nice addition, but it is a 
stand-alone item. The idea of having an integrated weapons 
system available to a BCT like the weapons system that is 
contemplated by this effort is great.
    So have you thought about what you think the Army ought to 
be doing at this point, thinking about restructuring and moving 
forward so we don't lose this?
    Mr. Francis. We have thought about it, Mr. Marshall. It is 
not something we could subject to an audit. There is no book on 
this.
    Mr. Marshall. Right.
    Mr. Francis. But in my way of thinking, the Army would 
first go back and look at their overall requirement, not all 
the details, but do they still have a requirement for a heavy 
system or a medium system; to keep their eye on what they are 
designing to.
    And then I think in terms of near term, midterm and long 
term, in the midterm they have to make sure their current force 
is recapitalized and kept current. And I would include in that 
any of the spin-outs from FCS that can make that current force 
better. That would be one thing I would think about.
    Then I would think about the midterm. There may be some 
platforms from FCS that, with additional development, that it 
might make sense to field them. So, for example, there could be 
something like the Bradley replacement; maybe it would make 
sense for when that vehicle is ready to replace it, if it is 
not dependent on the network for its performance. So if it has 
a stand-alone capability, I would think about that type of 
thing for midterm.
    Long term I think the Army should continue to invest 
significantly in its technologies in the network. It shouldn't 
stop and come back to that later. I think it needs to keep that 
science and technology going there to give itself options in 
the long term.
    Mr. Marshall. Gentlemen, do you agree, disagree, have 
something to add?
    Mr. Graveline. I would just add, the largest cost driver of 
the program is the manned ground vehicles. Certainly getting to 
the production stage of them, that is where it is going to be 
really expensive. So that is the thing you really have to think 
hard about what portion of those may want to go forward.
    I would agree with Mr. Francis on the network. There are 
some important things going on there and they are kind of 
getting to the point where they are really understanding what 
that network is all about and defining what they can do. There 
has been a lot of discovery on that part, and I would hate to 
lose that learning that they have made.
    There are a lot of pieces that have been developed, 
including some of the sensors that were to be included in the 
manned ground vehicles. They may be applicable elsewhere. And 
there are a lot of valuable pieces, so I think it ought to be 
carefully evaluated as to how to proceed, not just let's dump 
the whole thing.
    Mr. Ferguson. I would like to add, sir, to what Mr. 
Graveline alluded to earlier. With the Army Evaluation Task 
Force in Fort Bliss, the tremendous potential areas were having 
a near brigade-size unit there testing actual prototype systems 
and providing feedback in that design process, getting an 
honest-to-goodness perspective from soldiers who have been in 
Iraq and Afghanistan providing feedback in that process, I 
think is tremendous.
    Mr. Marshall. One more question. Part of the dilemma and 
one of the reasons why the Army probably would acknowledge that 
this has gotten all out of whack, the process that it had 
originally envisioned to develop this, again, having to do with 
the technology development. Can you imagine any circumstance in 
which the Army could produce evidence that is sufficient to 
persuade us that while we haven't had PDR, Critical Design 
Review (CDR) at this point--well CDR for sure--that is okay, 
because we can establish to your satisfaction that in fact this 
technology will be there; that it can simultaneously arrive and 
we can go ahead and it makes sense, you know, costwise for us 
to just go ahead and go into production with regard to the 
hardware itself with the idea that the technology will be there 
when this hardware is there. And that, net, we will save a lot 
of time, save a lot of lives. Hopefully we will not really be 
dependent upon these systems, but if we are, save a lot of 
lives, save a lot of time and also save money.
    Is it conceivable to you that they would be able to make 
the case that yeah, here is where the technology development 
is, but it will in 2012 be mature, be there, you can count on 
it?
    Mr. Graveline. I would say, looking at the potential things 
that could come out of this incremental approach they may come 
out with, they could start with a very basic vehicle which 
doesn't have a lot of the more exotic technologies on it, and 
try to build that first. And then as the technologies come 
along, keep adding to that basic vehicle as they go downstream. 
So that maybe the first version may not be satisfying to 
everybody, but that would be a starting point that you could 
stabilize and build on. And then down longer term, you get to 
where you really want it to be. That is not lacking risk 
involved in there, but I think that may be something----
    Mr. Marshall. And I think you might be giving good advice 
to the Army at this point. But I have a different question, I 
might not have stated it very well.
    If the Army simply wants for some reason to stay on the 
planned program, and it acknowledges that technology 
development is not yet complete and will not be mature almost 
until almost 2014, and CDR will not occur until 2011, 
nevertheless, Congress, you should permit us to go ahead and 
invest in system development and demonstration and actual 
production prior to that time, because it will all come 
together. And if we have to use it, the effect of it all coming 
together will be to save an awful lot of lives, and inevitably 
we will save money by moving forward as opposed to delay, and 
we will save time.
    Can you imagine a circumstance in which the Army would be 
able to prove that case, to establish to our satisfaction that, 
in fact, technology development will wind up leading to a 
product in 2013, even though we don't have it right now, a 
product that is acceptable?
    Mr. Ferguson. To date, so much of what the Army has 
provided to decision-makers such as the committee to build 
confidence in what FCS is doing has been based on modeling and 
simulation. It is our view that modeling and simulation is good 
very early in a program, that modeling and simulation has to be 
validated through actual demonstrations with production 
representative hardware.
    I think maturing technologies to a TRL six is a good start 
for the program, but the next step will be one getting those 
technologies validated by independent review time at the 
Department of Defense level. But then, actually netting some 
capabilities together and having some realistic demonstrations 
with the systems will provide a lot more confidence, I think, 
for the committee as they deliberate the future of the program.
    Mr. Marshall. We understand that is the ideal. I am just 
wondering is there a way for the Army to make its case without 
saying we can't do the ideal process here? No?
    Mr. Francis. Their programmer report shows they believe 
that now. They believe everything can go concurrently, that 
they don't have to build production representative prototypes. 
I think they would say their preliminary design review is so 
good, it is almost like a critical design review. I think they 
believe that they can do it all, even though it is 
unconventional. In fact, that is some of the discussions we 
have had. They believe that the model that we use to look at it 
is too linear and they are going to do this differently.
    Where we come out on that is we have seen so many systems 
go through this process, FCS is not the first system that we 
have looked at or even the first Army system. So we can't see 
how they can do it. But I guess you always have to keep open 
the possibility that it is possible that they could do it. But 
I don't see any way analytically where we can see that that 
could happen.
    Mr. Marshall. Thank you, by the way, for your expertise and 
commitment and the sort of help you are giving us here. This is 
great. So we obviously need to hear from the Army and have the 
Army explain what you just explained in trying to make its 
case.
    Besides yourselves, your experts, but if you were us and 
you felt like you needed to pull in some experts to listen to 
the case or the two views or the two sides, who would you pull 
in to help us evaluate whether or not it is real, when the Army 
is suggesting is realistic?
    Mr. Francis. Well, I could think of a couple of 
organizations. One would be the Institute for Defense 
Analyses----
    Mr. Marshall. We already have them on board.
    Mr. Francis [continuing]. Which has done some independent 
analysis. I would think also within the Department of Defense 
if you were, for example, to have the Program Analysis and 
Evaluation Office give you their views on things, because they 
see all programs across the board. Also, I think the Office of 
the Director of Defense Research and Engineering that does 
independent analysis of these technology readiness levels would 
also be able to give you a separate and expert opinion.
    Mr. Marshall. If the Army is suggesting that your 
approach--and graphically you have laid it out in a way that 
suggests that you are linear and they are sort of proceeding 
along simultaneous paths, hoping that we will all arrive at the 
same time, at the right time, with everything working. 
Obviously greater risk to the second approach than the first 
approach. No question about that.
    If we said to the Army, give us examples where your 
approach to this has worked, would they be able to do that, do 
you know? When I say ``your,'' the Army's approach is what I am 
referring to. It was an indefinite reference.
    Mr. Francis. I don't know of any examples that I could 
cite, and would think the number of examples citing the 
opposite would be quite a few--Expeditionary Fighting Vehicle 
which the Marines are developing.
    Mr. Marshall. You are talking about when procurement 
development lines up, getting--not going through this linear 
process, but follows a different route to the end result, there 
are lots of examples where it didn't work out too well?
    Mr. Francis. That is correct. So even on a single system, 
when a concurrent approach has been attempted where you try the 
design before your technologies are ready, those programs have 
not worked out well. So for me it is difficult to see--if you 
scale that up exponentially to assist on the systems and make 
it more complex, it is harder to see how that approach somehow 
involves less risk.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Abercrombie. Do you have something at the moment, Mr. 
Kissell?
    Okay. A couple of things. It reminds me when you are 
mentioning that, because it came out of this committee when Mr. 
Weldon was Chairman, the Presidential helicopter. I have just 
to remind myself that I wasn't imagining that I saw what I saw 
in my mind to say, you know, I was on that years ago. Well, it 
turns out I was, and the committee was, subcommittee was. It is 
a perfect example. They kept adding stuff.
    We took a look at it and we said, you know, we are just 
sitting here; Mr. Massa is in the dairy farms, and Mr. Kissell 
is in the textile factory; and I am sitting at the beach at the 
Royal Hawaiian.
    So it occurred to me that it you keep adding things into 
this helicopter, you change the weight and you change the way 
the thing has to be built. And that has to change and then the 
aerodynamics and so on.
    I kept thinking if you keep doing that, how are you going 
to make this work in the time line that you set up? That is 
where it first came to my mind: Aren't you bending the laws of 
physics here? No, no, no, we are on schedule, we are on budget, 
and look what has happened now with it.
    When you get it to the point where the President is 
supposed to be able to iron his clothes and have a spa 
treatment in the helicopter, it is going to change the way it 
works. In other words, I guess where I come down is that the 
one thing I think I have learned on the committee over these 
years is there is a book for a reason. You follow the book for 
a reason.
    And that the interesting--I suppose it is paradox to some 
people--the reason the book exists is to actually support 
initiative. If you do things by the book you can actually 
exercise initiative, go into new programs and so on, but you 
are going to do it in a way that substantiates itself as it 
goes along and that is the reason you have the book.
    Now in that context, on March 13th, after the GAO's report 
was generally circulated and you had finished your discussions 
with the Army, right--the report did not come out before you 
had gone back and forth with the Army or with drafts and so on, 
correct?
    Mr. Francis. Correct.
    Mr. Abercrombie. On March 13th a press conference was 
called, and then key Army officials at that time made a number 
of critical comments about the report and offered an Army 
perspective on the state of the FCS program. I am bringing it 
up now because they are not here. So all I can go on is what 
was already out in the public domain from the Army, aside from 
the statement which I entered into the record, which begins 
with this quotation on the acquisition process and differences 
with the GAO report--that is the way it is stated here. ``In 
many respects the FCS program is a model for the flexibility 
and rapid adjustment that the Office of the Secretary of 
Defense and Congress have called for in defense acquisition.''
    That is the principal defense--I won't even say 
``defense''--the initial offense here, the initial commentary, 
is that Congress called for this kind of approach as a model.
    That being the premise, the foundational premise, here are 
the questions I have. Army officials have professed confusion 
about two specific cost estimates which have been used already 
today that the GAO used in its report, one on the possible cost 
increase of the core FCS program, $19 billion, and the other on 
the cost of the FCS spin-out initiative, $21 billion. Can you 
tell me, then, where the cost estimates came from?
    Mr. Ferguson. Mr. Chairman, I will answer that. The $19 
billion and $21 billion were actually figures that were 
generated by the Army, specifically the Future Combat Systems 
program in an attempt to provide information for the Program 
Objective Memorandum (POM) process.
    Mr. Abercrombie. Explain the POM process.
    Mr. Ferguson. Program Objective Memorandum, which kind of 
lays out the requirements and funding for the next six years 
for the Army. That is where the numbers came from. And the 19 
billion--2 billion was for additional system and development 
funding, and 17 billion of it would be for additional 
procurement money.
    Mr. Abercrombie. Where do those figures come from?
    Mr. Ferguson. The Army.
    Mr. Abercrombie. Why would they be expressing confusion as 
to why you used those in the report?
    Mr. Ferguson. I am really not sure, sir.
    Mr. Abercrombie. Did you use those figures in your 
discussions with the Army? Or did those figures appear in the 
back-and-forth discussions that you had, either in the 
development of the draft or in their commentary afterwards?
    Mr. Ferguson. There is a comment period, and the Army has 
an opportunity to send us technical comments on the details of 
the report. No comment was raised about those numbers being in 
the report.
    Mr. Abercrombie. Okay, thank you.
    Mr. Ferguson. Yes, sir.
    Mr. Abercrombie. Did you want to say something, Mr. 
Francis, or were you just twitching at the moment?
    Mr. Francis. No, I was waiting for Marcus to get to that 
point. Those numbers were in the draft report. The draft report 
was with the Department of Defense and the Army for a month. 
They get a month to comment on it. So those numbers are well 
vetted.
    Mr. Abercrombie. Okay, second question. Army officials 
stated--now I am referring to the public commentary here. You 
may have read some of this commentary yourself in the general 
press. Hopefully we will still have newspapers in the next few 
months, and we will be able to--we may have to look to them in 
order to get our information. ``Army officials also stated that 
the GAO has mischaracterized what the Army has done in terms of 
testing to date, and claims that the GAO discounts the value of 
the Army's modeling and simulation efforts.''
    I realize you have talked about these things in the course 
of the hearing today, but my question then is can you summarize 
your perspective on these claims? One, that you have 
mischaracterized what the Army has done in terms of testing to 
date, which I presume is the way you put these slides together? 
And two, that you discount the value of their modeling and 
simulation efforts?
    Mr. Graveline. Oh, I will respond to that in a couple of 
different ways. One, first of all our purpose was to respond to 
the congressional direction for the milestone review, which 
talked about demonstrations rather than simulations. So kind of 
the standard there was beyond simulations. And it wasn't that 
we were discounting simulations at all. It was the Congress was 
interested at a step beyond that.
    And so our conclusion was, although they have been doing 
testing--we recognize that--the Army wishes we would recognize 
it more so. That is a matter of half empty, half full kind of 
argument there: How much do we recognize it?
    Mr. Abercrombie. Am I to understand that your answer would 
be that it was not that you are discounting the value of 
simulation; that is not what you were measuring?
    Mr. Graveline. Absolutely.
    Mr. Abercrombie. What about the question of testing to 
date?
    Mr. Graveline. Again, the Army would prefer that we go at 
great length to describe all the testing that they have done to 
date. We don't discount that; we know of that. We would also 
say it is a matter of a challenge involved here in FCS, that it 
requires a lot of testing to demonstrate many of these 
technologies and systems and sub-systems. So it wasn't that we 
were discounting them at all. It is a matter of how much credit 
do you give that of the piece testing to the whole and how well 
that demonstrates the whole concept.
    Mr. Abercrombie. Maybe I can--the reason I asked that 
question had to do particularly with the radio networks. And, 
again, this statement that was submitted to us last week under 
a section called ``Alignment and Program Status of 
Complementary FCS Programs,'' including the Joint Tactical 
Radio System and Warfighter Information Network Tactical 
Programs. The Army goes--again you are not questioning that 
they were testing; the point here was, was it not, as to 
whether that actually is advancing toward the maturity of the 
technology for useful test, whether it is critical testing time 
or whatever, right?
    Mr. Graveline. Uh-huh.
    Mr. Abercrombie. What they said here to answer was that the 
Joint Tactical Radio System and the Ground Mobile Radio and the 
hand-held man-packed small form fits and Warfighter Integration 
Network are complementary programs. Well, no argument there, 
right?
    Synchronization of these programs, technical interfaces 
occurs through the use of the interface requirements documents 
and the quarterly synchronization summits. No argument there. 
That is what takes place, right? This is where you talk about 
your reviews.
    They describe system performance, technical interface 
expectations, programmatic gaps and schedule costs and 
performance between the programs are resolved at quarterly 
transport layer synchronization summits.
    Are you familiar with that phraseology?
    Mr. Graveline. Yes, sir.
    Mr. Abercrombie. Programmatic gaps in the schedule, cost 
and performance between the programs are resolved at quarterly 
transport layer synchronization summits.
    Now, I read that and I would think that what they are 
saying is that these programmatic gaps, the cost problems and 
the performance deficits have been resolved. And they did it at 
a summit where--which they synchronized all these things.
    Am I correct that what they really mean here is they talked 
about these things?
    Mr. Graveline. It has been an elusive problem for the Army 
to solve since the start of the program, the coordination 
between FCS and its complementary programs. At times there are 
a few dozen that are considered critical, very vital for FCS' 
success, and then there are a hundred or more, I think, that at 
least have to be well-known to each other.
    The synchronization of all those efforts together has been 
an enormous challenge for FCS and the Army as a whole. And they 
have devoted a lot of attention to it, and they are still 
finding that there are gaps. Some of the preliminary design 
reviews identified some more of those, that they are not quite 
synched up as to what FCS expects from these other programs, 
and what they are ready to deliver. And it has been quite a 
frustrating experience for the Army, and they are not there 
yet.
    Mr. Abercrombie. They characterize this--what you have just 
said is frustration--they say this facilitates continuous 
leadership awareness of achievable capability. That is a true 
statement too, isn't it?
    Mr. Graveline. Uh-huh.
    Mr. Abercrombie. That is a true statement too, isn't it?
    Mr. Graveline. Yes.
    Mr. Abercrombie. In other words, it doesn't work; and they 
are aware of that.
    Mr. Graveline. This has the--the top levels of the Army 
have been involved in this effort for some time; and it is 
still a frustrating, illusive thing to get these nailed down, 
that everyone is on the same plan and that they know their 
expectations and they are going out to meet them.
    Mr. Francis. Mr. Chairman, I would just add, these programs 
have been resynchronized several times. So they resynchronize. 
They make discoveries. Technologies don't behave very well. And 
when you learn more, then you have to resynchronize because the 
plan didn't turn out.
    Mr. Abercrombie. I am not reading this in order to be 
sarcastic. I am reading this in order to say this is how you 
can--speaking of mischaracterization or something, this is how 
you can delude yourself. This sympathetic magic that is going 
on here.
    It reminds me of Norman Mailer's ``Fire the Moon,'' when he 
did a biography, if you will, of the moon shot. At one point, 
he has a chapter on the psychology of machines; and he 
maintains in a metaphorical way--he talks about glitches, that 
there are things that happen and that is not supposed to 
happen. Everything has already been programmed. You know, the 
physics of everything. And yet he talks about the psychology of 
machines, that there is a certain dimension to all of this that 
simply isn't accounted for and has to be rigorously addressed 
in order to be dealt with.
    One last question then. One of the people making commentary 
was Lieutenant General Vane. He stated that the Army has proven 
a variety of FCS systems on the battlefield in Afghanistan. I 
don't know if you are prepared to answer that, but I was not--I 
am not quite sure what that refers to. Given your statements on 
the status of the FCS program, do you have any idea exactly 
what is being referred to, that there is a variety of FCS 
systems that have been put into the battlefield in Afghanistan?
    Mr. Graveline. There have been several things. It is 
important to understand from the outset, though, that when FCS 
started in 2003, there was a great deal of it that was new 
development that was started. All the manned ground vehicles, 
that was a fresh start. But there was also a variety of things 
that were already in development elsewhere, and the Army just 
pulled those all together in this conglomerate program.
    Mr. Abercrombie. That is what I thought.
    Mr. Graveline. And some of these things have continued to 
mature.
    And, also, I might add, too, that there are some pieces of 
FCS that were actually a commercial product. And I refer there 
to the small unmanned ground vehicle--actually, was it last 
year here? But they had the little robot, the remote control 
thing here, the Army brought it.
    Mr. Abercrombie. Yes.
    Mr. Graveline. That was, frankly, a commercial product, I 
believe. So early versions of these items, that robot for one, 
have been fielded and are used in Iraq and Afghanistan with 
good effect. No challenge there.
    Now, the Army is continuing to develop those, for example, 
that robot, making it even smaller, adding the new radio on to 
it, adding additional capabilities. But the basic robot is 
already fielded there. And, likewise, there is this small 
unmanned aerial vehicle that looks like a little trash can type 
of thing.
    Mr. Abercrombie. I have seen the--and have gone to Fort 
Bliss that you mentioned.
    Mr. Graveline. That was something done by the Defense 
Advanced Research Projects Agency (DARPA), I believe, that 
worked on that program for some time. And the Marines had 
demonstrated, I want to even say in Hawaii, the 25th unit 
there.
    Mr. Abercrombie. The Army.
    Mr. Graveline. All right. That is something that they are 
also using over in Afghanistan and Iraq.
    But the Army is continuing that within the FCS program. 
They are putting a new engine on it and adding additional 
electronics. And so its FCS element will continue, and it is 
going to be ready in a few years. But early versions of these 
things are being fielded.
    Mr. Abercrombie. What it does show then is the efficacy of 
following the book on maturing technologies.
    Mr. Graveline. Yes.
    Mr. Abercrombie. In other words, if you do get started with 
something, well, then you can build on it.
    Mr. Graveline. U-huh.
    Mr. Abercrombie. Mr. Bartlett, you are fine?
    Mr. Bartlett. I want to thank you for calling this hearing, 
and I want to thank our witnesses for their diligent work. 
Thank you very much.
    Mr. Abercrombie. The work of the GAO is a constant 
revelation. And I want to state for the record that you 
gentlemen carry the tradition and legacy of the GAO, which I 
rank right there with the Library of Congress, as a matter of 
fact. The Congressional Research Service and the GAO are 
singular--set singular standards for public service, and your 
value to not just this committee but to the American people is 
very difficult to measure. I don't know what kind of metrics 
they put on that, but professionalism, objectivity, 
perseverance, and fidelity to the purpose of public service I 
think is manifest in what you have been doing, not just in this 
report but really in every single instance that I have dealt 
with the GAO; and I thank you very much.
    Mr. Francis. Thank you very much.
    Mr. Abercrombie. This will conclude the hearing. Thank you.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]


=======================================================================


                            A P P E N D I X

                             March 26, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 50824.001
    
    [GRAPHIC] [TIFF OMITTED] 50824.002
    
    [GRAPHIC] [TIFF OMITTED] 50824.003
    
    [GRAPHIC] [TIFF OMITTED] 50824.004
    
    [GRAPHIC] [TIFF OMITTED] 50824.005
    
    [GRAPHIC] [TIFF OMITTED] 50824.006
    
    [GRAPHIC] [TIFF OMITTED] 50824.007
    
    [GRAPHIC] [TIFF OMITTED] 50824.008
    
    [GRAPHIC] [TIFF OMITTED] 50824.009
    
    [GRAPHIC] [TIFF OMITTED] 50824.010
    
    [GRAPHIC] [TIFF OMITTED] 50824.011
    
    [GRAPHIC] [TIFF OMITTED] 50824.012
    
    [GRAPHIC] [TIFF OMITTED] 50824.013
    
    [GRAPHIC] [TIFF OMITTED] 50824.014
    
    [GRAPHIC] [TIFF OMITTED] 50824.015
    
    [GRAPHIC] [TIFF OMITTED] 50824.016
    
    [GRAPHIC] [TIFF OMITTED] 50824.017
    
    [GRAPHIC] [TIFF OMITTED] 50824.018
    
    [GRAPHIC] [TIFF OMITTED] 50824.019
    
    [GRAPHIC] [TIFF OMITTED] 50824.020
    
    [GRAPHIC] [TIFF OMITTED] 50824.021
    
    [GRAPHIC] [TIFF OMITTED] 50824.022
    
    [GRAPHIC] [TIFF OMITTED] 50824.023
    
    [GRAPHIC] [TIFF OMITTED] 50824.024
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 26, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 50824.025
    
    [GRAPHIC] [TIFF OMITTED] 50824.026
    
    [GRAPHIC] [TIFF OMITTED] 50824.027
    
    [GRAPHIC] [TIFF OMITTED] 50824.028
    
                                  <all>

</pre></body></html>
